           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  DISCLOSURE STATEMENT REVIEW OF
   MAXIMUS, INC. HOME OFFICE AND
    HEALTH OPERATIONS DIVISIONS


  NOVEMBER 2004      A-15-04-34097




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY

MEMORANDUM


Date:   November 23, 2004                                                   Refer To:

To:     Dale Sopper
        Deputy Commissioner
        Office of Finance, Assessment and Management

From:   Assistant Inspector General
         for Audit

Subject: Disclosure Statement Review of Maximus Inc. Home Office and Health Operations
        Divisions (A-15-04-34097)


        OBJECTIVE
        Our objectives were to determine whether the revised disclosure statements for the
        Home Office and Health Operations Divisions of Maximus, Inc., dated
        January 20, 2004, a contractor for the Social Security Administration (SSA), were in
        compliance with appropriate regulations.

        BACKGROUND
        Certain contractors and subcontractors, such as Maximus, Inc., are required by
        Public Law 100-6791 to comply with Federal Cost Accounting Standards, once they are
        awarded a contract that exceeds $500,000. Those standards provide instructions for
        contractors and subcontractors on the appropriate methodology to use when accounting
        for costs incurred and the necessity to make written disclosure that the standards have
        been followed.2

        Federal Acquisition Regulations (FAR) state that the cognizant auditor is responsible for
        conducting reviews of disclosure statements for adequacy and compliance.3 Agency
        cognizance is determined to be the agency with the predominant financial interest and
        that agency should arrange for all audits at an organization. FAR requires the auditor to
        recommend whether the disclosure statements satisfactorily describe the cost
        accounting practices. Since SSA has the largest dollar amount of negotiated contracts,
        including options, with Maximus, Inc., SSA is the cognizant agency.
        1
          Office of Federal Procurement Policy Act Amendments of 1988.
        2
          48 C.F.R. Part 30.
        3
          48 C.F.R. §§ 30.202-1 et seq. and 9903.202-1 et seq.
Page 2 – Dale Sopper

Maximus, Inc. has submitted to SSA revised disclosure statements to reflect changes in
the disclosure statement requirements and changes to the corporate structure at
Maximus, Inc. Maximus’ prior disclosure statements were dated December 7, 1994.

CONCLUSION
Our review determined the revised disclosure statements adequately described
Maximus’ revised cost accounting practices. The practices, as described in the
revised disclosure statements, comply with applicable Cost Accounting Standards.




                                              S
                                              Steven L. Schaeffer
                                     Appendices
APPENDIX A – Accounting Practices

APPENDIX B – Scope and Methodology

APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                     Appendix A

Accounting Practices
Based on our review of the disclosure statements, we determined that the following cost
accounting practices in the disclosure statements have the greatest impact on Federal
contracts:

Home Office:

   1.   Item 1.4.0 – Description of Cost Accounting System – Actual costs – Job order
   2.   Item 1.6.0 – Unallowable Costs
   3.   Item 6.1.0 – Method of Charging and Crediting Vacation, Holiday and Sick Pay
   4.   Item 8.1.0 – Organizational Structure
   5.   Item 8.3.0 – Expenses or Pools of Expenses and Methods of Allocation

Health Operations:

   1.   Item 1.4.0 – Description of Cost Accounting System – Actual costs – Job order
   2.   Item 1.6.0 – Unallowable Costs
   3.   Item 2.2.0 – Method of Charging Direct Material
   4.   Item 2.5.0 – Method of Charging Direct Labor
   5.   Item 2.7.0 – Description of Other Direct Costs
   6.   Item 2.8.0 – Credits to Contract Costs
   7.   Item 3.2.0 – Treatment of Costs of Specified Functions, Elements of Cost,
                      or Transactions
  8.    Item 4.1.0 – Overhead Pools
  9.    Item 4.2.0 – General and Administrative (G&A) Pool(s)
 10.    Item 4.5.0 – Application of Overhead & G&A Rates to Specified Transactions
                      or Costs
 11.    Item 4.6.0 – Independent Research and Development (IR&D) and Bid
                      and Proposal (B&P) Costs
                                                                                   Appendix B

Scope and Methodology
Our review focused on the revised disclosure statements for Maximus, Inc. Home Office
and Health Operations Divisions. We reviewed the Cost Accounting Standards and
obtained an understanding of how the Cost Accounting Standards1 relate to the
adequacy and compliance of the disclosure statements.

We determined the following cost accounting standards apply to Maximus, Inc.


COST ACCOUNTING                                                 TITLE
   STANDARD2

             401               Consistency in Estimating, Accumulating and Reporting Costs
             402               Consistency in Allocating Costs Incurred for the Same Purpose
             403               Allocation of Home Office Expenses to Segments
             404               Capitalization of Tangible Assets
             405               Accounting for Unallowable Costs
             406               Cost Accounting Period
             408               Accounting for Costs of Compensated Personal Absence
             409               Depreciation of Tangible Capital Assets
             412               Composition and Measurement of Pension Cost
             413               Adjustment and Allocation of Pension Cost
             415               Cost of Deferred Compensation
             418               Allocation of Direct and Indirect Costs
                               Accounting for Independent Research and Development Costs
             420
                               and Bid and Proposal Costs

We identified the accounting practices with the greatest impact on Government
contracts (see Appendix A). We verified on a test basis that these practices were being
applied by Maximus, Inc.



1
    Issued by the Cost Accounting Standards Board and incorporated in 48 C.F.R. Part 30.
2
    48 C.F.R. Part 9904.


                                                    B-1
We also tested the logical interrelationships between data within the disclosure
statements. We reviewed the disclosure statements to determine whether they
adequately described Maximus’ cost accounting practices and whether the disclosed
practices complied with the appropriate rules, regulations and standards.

Our review was limited to reviewing the Home Office and Health Operations Divisions’
disclosure statements submitted by Maximus, Inc. We reviewed the statements for
adequacy and compliance to verify that the contractor’s actual accounting practices
were the same as those in the disclosure statements.

We conducted our review in accordance with generally accepted government auditing
standards. Our fieldwork was performed in Baltimore, Maryland; and Reston, Virginia
between March and October 2004.




                                         B-2
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Lance Chilcoat, Audit Manager, (410) 965-9743

Acknowledgments

In addition to those named above:

   Jackie Patel, Auditor-in-Charge

   Sandra Westfall, Program Analyst

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-15-04-34097.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
